=
I

C@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B 5 icfs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site

(402) 342-2831

www.cocklelegalbriefs.com
Fax: (402) 342-4850

Nos. 19-368 and 19-369

FORD MOTOR COMPANY, Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, et al., Respondents.

 

FORD MOTOR COMPANY, Petitioner,
Vv.
ADAM BANDEMER, Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF PROFESSORS
OF CIVIL PROCEDURE AND FEDERAL COURTS AS AMICI CURIAE IN SUPPORT OF
RESPONDENTS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5695 words, excluding the parts that are exempted by
Supreme Court Rule 33.1 (d), as needed.

Subscribed and sworn to before me this 3rd day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL HOTARY State of Babraska
RENEE J. GOSS
My Comm. Exp. September 6, 2023

   

 

Kents. 0. Lose Ondiar-h, Qh ly

Affiant 3971
